<html>
<title> - REVIEW OF ACTIONS TAKEN ON THE 1999 CONGRESSIONAL COMMISSION ON SERVICEMEMBERS AND VETERANS TRANSITION ASSISTANCE REPORT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                      REVIEW OF ACTIONS TAKEN ON THE 
                     1999 CONGRESSIONAL COMMISSION ON
                        SERVICEMEMBERS AND VETERANS
                       TRANSITION ASSISTANCE REPORT

                              ___________

                      Thursday, December 7, 2006

                                            House of Representatives,
                                Subcommittee on Economic Opportunity,
                                      Committee on Veterans' Affairs,
                                                     Washington, D.C.



The subcommittee met, pursuant to call, at 2:02 p.m., in Room 334, Cannon 
House Office Building, Hon. John Boozman [chairman of the subcommittee] 
Presiding.

      Present:  Representatives Boozman, Baker, Brown-Waite, Campbell, 
      Bilbray, Herseth, Hooley and Evans. 

      Mr. Boozman.  I apologize for running a little bit late.  There 
      is just a lot of stuff going on up here right now in an effort to 
      wind things down.
      The final hearing of the Subcommittee on Economic Opportunity will 
      come to order.
      Today is the last House Veterans� Affairs Committee hearing of the 
      109th Congress.  It is also Pearl Harbor Day, and I hope each of 
      us will take a moment to remember the souls that were lost that
      day.  Fortunately, I do not believe this will be a day that goes 
      in the history books as a day of infamy.
      Before we begin today�s official business, I want to extend my 
      sincere appreciation for the bipartisan spirit that has been the 
      hallmark of our operation for the last 2 years.  I especially 
      want to thank our Ranking Member, Stephanie Herseth, for the 
      work she has done and the manner in which she has done it.  I 
      could not have had a better Ranking Member.
      To our staffs, I also want to say thanks for their efforts over 
      the past 2 years; and for those who will be leaving us, you go 
      with our best wishes.  I really do mean that.  I appreciate you 
      guys so much.
      Right now, we are in the situation where the country is unhappy 
      with us in the sense that there is a lot of wrangling going on 
      that is unnecessary.  But, I think the Committee overall, the 
      entire Committee, has operated in a bipartisan manner ever 
      since I have been in Congress, if we could mimic that 
      throughout Congress we would be a lot better off.
      Now there is a rumor that Ms. Herseth will be changing titles 
      in a few weeks, and at that time I will hand her the gavel and 
      truly will wish her my best wishes and do all that we can to 
      be helpful.
      First, Congressman Simpson has asked for permission to enter 
      a statement record.  Without objection, so ordered.
      [The statement of Michael K. Simpson appears on p. 37]

      Mr. Boozman.  During the 109th Congress, the Economic 
      Opportunity Subcommittee spent considerable effort conducting 
      oversight of the transition assistance programs and the GI 
      Bill.  We did that because we felt that the best thing we 
      could do for those leaving military service and those 
      remaining in uniform was to ensure that the process of 
      returning to civilian life was reasonably smooth and offered 
      the chance to obtain gainful employment.
      Did we find the perfect system?  No.  Did we find the system 
      that provides good basic information assistance?  I believe 
      that we did.  But, like many government programs, the system 
      can be made to work better, and that is why we are here today. 
      Because, in the end, it is all about a good civilian job, 
      whether it is right out of the service or following shorter 
      extended training and education periods.
      In January, 1999, in response to Public Law 104-275, the 
      Commission on Servicemembers and Veterans Transition 
      Assistance issued its report.  In general, the Commission was 
      tasked to, number one, review the adequacy and effectiveness 
      of veterans� transition assistance and benefits programs and 
      providing assistance to members of the Armed Forces in making 
      the transition and adjustment to civilian life; reviewing the 
      allocation under the law of responsibility for the administration 
      of the veterans� assistance and benefits programs among the 
      various departments and agencies of the government and determine 
      the feasibility and desirability of consolidating such 
      administration; thirdly, to evaluate proposals for improving such 
      programs, including the proposals for alternative means of 
      providing services delivered by such programs; and, fourth, make 
      recommendations to Congress regarding the need for improvements 
      in such programs.
      The Commission met for several years, and the results from the 
      report was wide ranging in its views addressing the many issues 
      facing servicemembers who were transitioning to civilian life.  
      Following the release of the report, the House Veterans� Affairs 
      Committee formally received the views of the Commission.
      There has been a lot of water under the bridge since then, so, 
      continuing with our focus on employment and transition issues,
      we thought it would be fitting to close out the 109th Congress 
      with a review of how far we have come relative to the 
      Commission�s recommendations and to set the stage for the 110th 
      Congress.
      I now yield to Ms. Herseth for her opening comments.
     [The statement of Mr. Boozman appears on p. 35]

      Ms. Herseth.  Thank you, Chairman Boozman; and good afternoon to 
      you.
      Before we begin, I also want to express my gratitude to you for 
      your leadership on this subcommittee and for the bipartisan 
      approach that you have taken to our work.  The very good 
      relationship that members of our staff have shared over the past 
      couple of years and our working relationship and personal 
      friendship are a mark of what our constituents would hope would 
      be the manner in which we conduct our business here in 
      Washington.  I anticipate that our working relationship will 
      continue on this subcommittee and the full Committee, and we 
      look forward to that as we build upon the work that we have 
      undertaken in the 109th Congress into the next one.
      There are so many matters that are before us as it relates to 
      our servicemembers, veterans and military families and the 
      future.  I want to thank all of today�s witnesses for your 
      insights, for the written testimony that you have submitted and 
      your time today.  Your views and insights are critically 
      important to this subcommittee as we examine policies and 
      recommendations concerning servicemembers� transitions to 
      civilian life in their veteran status.
      Mr. Chairman, we ask a great deal of our servicemembers, as all 
      of us in this room understand.  We ask a lot of our veterans 
      and military families, perhaps more than any other segment of 
      our society.  No doubt they have earned and deserve our best 
      efforts to provide them with a quality and enlightened process 
      as they prepare and ultimately separate from military service.
      In my opinion, military recruiting and overall morale could be 
      improved by ensuring a quality transition process and providing 
      new and improved opportunities for veterans to explore in the 
      civilian workforce, entrepreneurial and higher education sectors. 
      A veteran and, perhaps more importantly, a military family that 
      experiences a successful transition to civilian life is arguably
      more important than a Madison Avenue ad as it relates to purposes 
      of our all-volunteer force.
      Mr. Chairman, I look forward to hearing the witnesses� testimony, 
      working with you, your staff, all of our colleagues on this 
      Committee, Ms. Hooley and her great work on the subcommittee to 
      examine and develop policies aimed to improve readjustment 
      services for men and women in uniform.  Thank you, and I yield 
      back.
      [The statement of Ms. Herseth appears on p. 38]

      Mr. Boozman.  Ms. Hooley.
      Ms. Hooley.  Thank you, Mr. Chairman.
      I appreciate the opportunity to be here this afternoon and for 
      this Committee to review the progress made by the Department 
      of Veterans Affairs, Labor and Defense regarding the 
      implementation of the recommendations of the 1999 Congressional 
      Commission on Servicemembers and Veterans Transition Assistance 
      Report. 
      The issues surrounding the transition of our servicemembers and 
      veterans are of great interest to me personally.
      I worked during the last several appropriations cycles to add 
      funds to the Department of Labor for the purpose of educating 
      employers on their responsibility under Uniformed Services 
      Employment and Reemployment Act (USERRA), and I look forward to 
      hearing from the Department representatives.
      One of the issues I have been particularly involved in has been 
      the reintegration of the Oregon National Guard members who are 
      returning from long deployments in Iraq and Afghanistan-Guard 
      and Reserve members.  I sometimes think we forget how different 
      their return is from the regular military, but they face unique 
      challenges as they often transition directly from a war zone 
      back into civilian life without the support network provided by 
      the active duty base.
      They are coming home to go back to work in their businesses or 
      to return to school.  The life they face post-deployment is 
      radically different from their lives as active duty soldiers.  
      In many cases, they may not have the support of a job, or 
      family life may be dramatically altered.
      Despite an increase in reliance on the Guard and Reserve 
      members, in many cases they are still treated as second-class 
      citizens by our government.  One of the areas where this is 
      most apparent is in the Montgomery GI Bill benefits.  Although 
      we have made improvements to the educational benefits for 
      Guard and Reserve members in recent years, they still receive
      a significantly smaller benefit than the active duty 
      counterparts that they serve side by side with.  They face a 
      confusing array of options for educational benefits with 
      various limitations and restrictions and in many cases can 
      only use their benefits while they remain in the Selective 
      Reserve, making it virtually impossible for them to use
      their earned benefits.
      When we talk about the reintegration of returning 
      servicemembers and the transition from military to civilian 
      life, we must make certain we are looking out for all of our
      veterans, not simply those who served as part of the regular
      active duty military.  It is long past time we stop treating
      our Guard and Reserve members as second-class soldiers and
      give them the reintegration services that they need and 
      deserve.  
      Thank you.
      Mr. Boozman.  Thank you.
      I am pleased that the former VA Secretary and Chairman of the
      Commission, Anthony Principi, is here to testify with us.  
      He has a unique perspective as a former VA Secretary and 
      Chairman of the Commission.
      Secretary Principi is accompanied by the Vice Chairman of the
      Commission Mr. Kim Wincup.
      The Secretary, during the BRAC hearings, I had the opportunity
      to work with him on that.  He has a son in the Air Force.  Is 
      he still at Little Rock Air Force Base?
      Mr. Principi.  I am sorry, sir?
      Mr. Boozman.  Your son, is he still at Little Rock Air Force 
      Base?
      Mr. Principi.  He is.
      Mr. Boozman.  He has a son at Little Rock Air Force Base.  And 
      this young man, I think half of my staff fell in love with him 
      when they met him, but we are very proud of him.  Be sure and 
      tell him, send him our best.
      Mr. Principi.  I sure will, Mr. Chairman.
      He just came back from Iraq, and he is back in Little Rock, and
      I think he is very very happy to be back at Little Rock.  But I 
      appreciate that, and I know he enjoyed very much meeting you 
      and your staff.
      Mr. Boozman.  Well, tell him that we are very proud of him.
      Mr. Principi.  Thank you very much, sir.  Thank you.

STATEMENT OF THE HON. ANTHONY J. PRINCIPI, FORMER CHAIRMAN, 
CONGRESSIONAL COMMISSION ON SERVICEMEMBERS AND VETERANS TRANSITION 
ASSISTANCE, ESTABLISHED PURSUANT TO PUBLIC LAW 104-275, AND FORMER 
SECRETARY, U.S. DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY THE 
HON. G. KIM WINCUP, D VETERANS TRANSITION ASSISTANCE, ESTABLISHED
PURSUANT TO PUBLIC LAW 104-275

           Mr. Principi.  Good afternoon, Mr. Chairman, Ranking Member 
           Herseth, Congresswoman Hooley.
      I am pleased to be joined by Vice Chairman Wincup and also 
      Commissioner Jane, who served on the Commission, Commissioner
      Drach as well, and Bob Stein, who is our Executive Director; 
      and I thank them for being here.
      I also want to recognize Deputy Secretary Mansfield, who served 
      as my deputy for much of my 4 years as Secretary and with such 
      great, great dedication and loyalty; and I am very very pleased 
      to see him here today as well.
      I commend you, Mr. Chairman, Ranking Member Herseth, for 
      convening today�s hearing.  Under your bipartisan leadership, 
      this subcommittee has indeed established an enviable record of 
      achievement over the last 2 years.  With site hearings and
      markups, you have convened no less than 12 public events with
      respect to the Montgomery GI Bill, an extraordinarily important
      statute, and other VA educational assistance programs and nine
      events focusing on the transition assistance program.  
      Further, an end-of-session and end-of-Congress public hearing 
      like today�s I think speaks volumes of your commitment to our 
      men and women in uniform, our Nation�s veterans, to your 
      leadership and, of course, to that of your outstanding staffs
      as well.  Vice Chairman Wincup and I earnestly thank you.
      The ultimate measure of successful transition from military to
      civilian life is long-term, sustained employment.  
      Fundamentally, employing veterans represents a good business
      decision because of their character, their commitment, their 
      sense of teamwork, their resolve.  Hiring veterans for 
      patriotic reasons expresses appreciation and respect.  Hiring 
      veterans for business reasons indeed gets results.
      Vice Chairman of General Motors, Bob Lutz, observed that 
      veterans personify economic strength.  Like you, Mr. Lutz sees
      veterans as a unique national resource and competitive business
      asset.
      But we, as a Nation, have an urgent challenge before us.  We 
      need more Bob Lutzes.  We need to do a much better job 
      conveying to employers the value-added human capital and 
      resourcefulness that veterans bring to our domestic economy 
      and especially convey it to the human resource professionals 
      who actually do the hirings in corporate America.  If we don�t 
      do so, the unemployment rate for 20- to 24-year-old veterans 
      may become even more unacceptable than it already is.
      But this situation goes beyond unacceptable numbers.  It is 
      our obligation as a Nation to be part of what we might call a 
      public trust with those who have served.  We need to be there 
      for them when they come home, because they lag 4 years beyond 
      their nonveteran peers.  Let�s level the playing field in that 
      regard simply by marketing veterans with employers, nothing 
      more and nothing less.
      My written statement makes seven recommendations in this regard.
      Let�s mobilize the ample resources of Federal and State 
      government, business and industry, the veterans� groups, the 
      military associations and the media to get the job done.
      Just as veterans personify economic strength, the Congress and 
      this Committee personified strength of vision in creating the 
      Commission on Servicemembers and Veterans Transition Assistance. 
      None of us knew in 1997 of the magnitude of worldwide hostilities
      that lay ahead and the challenges the 1.5 million American 
      soldiers, sailors, airmen, marines, and coastguardsmen would 
      face in protecting the everyday freedoms of 300 million 
      Americans.
      Your leadership in forming the Commission led to the most 
      comprehensive review of veterans� benefits and services since 
      the 1956 Omar Bradley Commission.  The Commission learned 
      quickly that the panoply of veterans� benefits was rooted in 
      the Great Depression, the Great War, and the Great Society.  
      Thanks to the wisdom and foresight of America�s veterans and 
      military organizations, we concluded, too, that we, as a 
      Nation, had designed these programs for a different era, a 
      different economy, a different society, a different technology,
      and indeed, a different veteran.
      Just as Harry Colmery of the American Legion penned the first 
      draft of the World War II GI Bill of Rights in longhand on 
      Mayflower Hotel stationery at about this time in 1944, the 
      veterans and military groups recommended to us a similarly 
      bold, unfettered blueprint of ideas for the Commission�s 
      report.  If the Commission�s recommendations represented a 
      solid foundation for congressional action, then this very 
      Committee created strong pillars of opportunity for the 
      175,000 servicemembers who annually join our domestic economy.
      Indeed, the record shows that many such transition 
      opportunities emerge from the rostrum of this subcommittee.
      In Table I of my written statement, I highlight several of the 
      Commission recommendations that, with your Senate counterparts, 
      Congress has enacted into law, including the largest increase 
      in the 21-year history of the Montgomery GI Bill.  Many of 
      those increases originated right here in this Committee:
      A nationwide redesign of veterans� jobs placement service based 
      on themes of accountability, flexibility, incentive, and 
      results; creation of the first economic set-asides in Federal 
      contracting for disabled veteran-owned businesses that the 
      Association of Service Disabled Veterans and the Vietnam Veterans 
      of America tell us were first proposed as far back as the White
      House Conference on Small Business in 1979; and the first major 
      updating of VA�s on-job training and apprenticeship program 
      since World War II.  Indeed, you have created economic 
      initiatives that produced a new building of economic opportunity 
      and reinforced all pillars that have stood the test of time.
      Today�s structure, however, needs design changes, occasioned by 
      America�s implicit commitment to those who wear the military 
      uniform during a period of war and mobilization against insidious
      terrorist acts.  The structure of economic opportunity urgently 
      needs not an annex but a new centerpiece, an atrium if you will,
      formed from the bedrock of America�s employers.  They alone 
      decide who gets hired, especially among the mid- and entry-level 
      type positions veterans covet when they return home.
      I urgently encourage the subcommittee to design a 
      forward-looking, cost-effective package of initiatives to 
      market veterans to employers, a nationwide campaign that 
      penetrates the private sector with the uniqueness of the veteran 
      brand.  We owe it to each of those who have served, to employers,
      to our economy and to ourselves.  Veterans deserve a full
      opportunity to participate in our economic system sustained by 
      their service and, Mr. Chairman, Ranking Member Herseth,
      Congresswoman Hooley, keep the interchangeable team intact 
      while doing so.
      Mr. Chairman, in my written statement I have paid tribute to 
      the rich history of leadership personified by past chairmen on 
      the Committee on Veterans� Affairs and also to Representative 
      Lane Evans, who is retiring with an enviable record of
      legislative achievement.
      In closing, I pay tribute to Congressman Chairman Steve 
      Buyer.  Chairman Buyer, too, has built durable pillars of 
      strength on which I believe the Committee will build in the 
      new Congress.  He is now in the distinguished company of 
      past chairmen who also were wartime veterans, including 
      Tiger Teague, the late Sonny Montgomery, the late Bob 
      Stump.  I thank Mr. Buyer for his commitment and his record
      of service.
      Thank you, Mr. Chairman.  Ranking Member Herseth and 
      Congresswoman Hooley.  Mr. Wincup and I will be pleased to 
      respond to your questions.
      Mr. Boozman.  Thank you very much.
      [The statement of Anthony Principi appears on p. 39]

      Mr. Boozman.  In your testimony, I don�t know whether to call
      you Mr. Secretary or Mr. Chairman or both, but you mention that
      the GI Bill is basically the only situation we have where 
      there is a buy-in as far as being a part of the program.  And
      talking about maybe doing away with that, those are the kind of 
      things that we are going to be struggling with in the next 
      Congress.
      But when you do the numbers, if you did away with the buy-in, 
      the $1,200, the figures I have heard, that that would translate 
      to about $100 a month in benefit.  So another way of looking at
      it would be to go ahead and continue the buy-in and increase 
      the benefit and still spend the same amount of money.
      Can you comment on that at all?
      Mr. Principi.  Yes.  Sure.  I was part of the-I was in the 
      Senate at the time.  Mr. Wincup was in the House.  We were both
      on the Armed Services Committee; and, of course, the Montgomery
      GI Bill originated here in the House.  There was some resistance
      in the Senate to the first peacetime GI Bill; and the compromise,
      if I recall, was to have the $1,200 buy-in as a way to get the 
      House and the Senate to come to agreement at about 4:00 in the
      morning in the dome of this Capitol in room 407.  I will 
      remember that night for as long as I live.
      But I believe, too, that as the Honorable Chris Jane, who was 
      commissioner, said at one point in time, University of Chicago 
      educated economist, that the $1,200 was really nothing more 
      than a tax.  And given what we call upon our men and women to 
      do today and around the world, not just in Iraq and 
      Afghanistan but on the front tiers of freedom, perhaps it is 
      time we look at doing away with it or, as you indicate, I 
      think in the alternative to increase the benefit somehow to
      make it more attractive.
      You know, the Pell grants are a wonderful program, but a lot 
      of people can get educational benefits in this country without
      having to serve-educational benefits without having to serve
      their country.  So whether we-we certainly in the Commission 
      recommended doing away with the $1,200 buy-in; and the 
      alternative, as you indicate, perhaps increasing the benefit 
      proportionately, I think would work as well.
      Mr. Boozman.  With all the sources of assistance available now-, 
      we have got the Internet, we have TAP, outstationing of VA and 
      DOL staff, unemployment benefits.  You know, you have lived 
      through this.  You have a son that is serving now.  Why do you 
      think the transition now is so difficult or appears to be so 
      difficult?
      Mr. Principi.  Why the transition?  
      Mr. Boozman.  Why the transition out of the service back into 
      civilian life.  It seems to be difficult right now, with overall 
      unemployment low and, just a multitude of various options 
      available to help in the transition.
      Mr. Principi.  Well, I know it is still very difficult.  When you 
      look at the unemployment rate for 20- to 24-year-olds, you know 
      clearly something is wrong; and we recommend that that be studied 
      as to what is the true reason for that higher unemployment rate. 
      I mean, I think it is about 10.8 percent for veterans between the 
      age of 20-24, maybe 8 percent unemployment rate on average for 
      nonveterans, so we simply need to do better.
      You know, I have always believed that if employment is the door to
      a successful transition, then education is the key to that door. 
      And whether it be a college education or on-the-job training, 
      apprenticeship training, I think we just simply need to do more to
      outreach to veterans, to tell them of the programs that are
      available that are either paid by the VA or paid by the Department
      of Labor.  We need to do a better job, perhaps re-establishing the
      Committee to outreach to employers to make them aware of the 
      benefits of hiring veterans.  So I think there is a lot that still 
      needs to be done, especially given this wartime situation we are 
      in.
      Mr. Boozman.  Ms. Herseth.  
      Ms. Herseth.  Thank you, Mr. Secretary; and I do appreciate your
      point to the Committee about an opportunity to put together a 
      package of initiatives and generate some ideas on how we can 
      penetrate the private sector as effectively as possible for the 
      benefit of our transitioning servicemembers.
      Before I get to some questions there, I do want to piggyback onto 
      the questions that the chairman posed as it relates to the 
      importance of education benefits that also allude to Ms. Hooley�s 
      points in her opening statement about reservists and National 
      Guardsmen and so the timing of the Commission that you chaired in
      your report and some of the hearings that we have had that you 
      made reference to as it relates to the importance of the 
      Montgomery GI Bill and how we make sure it is working effectively
      for all of our servicemembers, whether they be active duty or 
      in their Reserve and Guard components.
      Could you elaborate on what your thoughts are in bringing the 
      educational benefits for National Guard and reservists more in 
      line with their active duty counterparts and what are your 
      thoughts-this is something that we probed down in Arkansas when
      we had a field hearing there with one of the leaders of the
      Arkansas National Guard-on providing post-service educational
      benefits to activated reservists?  
      Mr. Principi.  Well, you know, I can�t say enough about the 
      role of the Selective Reserve and the Guard in today�s 
      all-volunteer force.  It is just extraordinary to me what they 
      do, how they do it, and their commitment.  The benefit level 
      really needs to be commensurate with that sacrifice, and I think
      there have been significant improvements in the benefit level
      for Guard and reservists.
      I think there is more that can be done in perhaps increasing the
      benefit level, the educational benefit level.  I think there 
      should be a differential between the active force and the Reserve 
      and Guard because of the-you know, you are on active duty for 
      4 years in the Guard and Reserve.  And although you are called up 
      to active duty much more often it is clearly not the same.  So I 
      think in order to encourage young men and women to go in the 
      active force, we should have a little higher benefit level, but, 
      clearly, more needs to be done in that regard.
      Kim, do you have anything you would like to add?
      Mr. Wincup.  Congresswoman, I think your-both points are unique. 
      We are asking something of the Guard and Reserve we have never
      done in the past in terms of the degree to which they are 
      deploying, and they are about to redeploy in the second round of
      deployments that are under consideration so I think we are going 
      to find stresses on those folks that we haven�t really seen in 
      any of our histories.  
      So I would agree with the Chairman strongly that some further 
      consideration for benefits for them would be warranted, although
      you do need to keep some differentiation between them and the 
      active force.
      Ms. Herseth.  I appreciate your thoughts.  I don�t think that we 
      have seen either members of the Committee or some of the 
      organizations that we all work with that help us represent our
      constituents while addressing this issue talking about doing 
      away with the differential, but we have seen over time a smaller
      and smaller percentage, particularly as it relates to the buying 
      power of that educational benefit because of what has happened 
      at the Department of Defense and the budget constraints in the 
      last few years with OIF and OEF as well as prior to that.
      I don�t think that there is so much a strong recommendation to 
      do away with the differential but rather, as we have attempted
      to do for those that have been activated for a certain period 
      of time, that we increase that benefit under Chapter 1607. 
     I do think that we have a more difficult challenge here in making 
     sure that those benefits should be allowed to be used by Guard 
     and reservists in terms of post-service education.  I think that
     the testimony that we have received thus far versus what we have
     heard from the Pentagon suggests that that isn�t going to affect
     recruitment and retention as significantly as the Pentagon claims.
      Do you think that it might be easier for us, assuming that we
      maintain a differential as you have both suggested, to deal with
      increasing the benefit for Guard and reservists if we were able
      to consolidate legislative jurisdiction over the Montgomery GI 
      Bill into one Committee rather than two?  As you know, we 
      currently have jurisdiction over the active duty program and the
      Armed Services Committee has jurisdiction over the Selective 
      Reserve program.
      Mr. Principi.  Well, I think there sometimes is a disconnect 
      between the two Committees and the level of benefits, and perhaps 
      that consolidation is something that should be looked at and 
      studied.
      Again, I applaud this Committee for what they have done.  I 
      remember when I started as Secretary back in 2001, the benefit 
      level under the GI Bill was 500 and maybe 50 or 80 dollars a 
      month.  And over a 4 to 5-year period during my tenure, I believe 
      it is now over a thousand dollars a month, and I believe the 
      Guard and Reserve benefit has gone up substantially as well.
      So you have made extraordinary progress in a relatively short 
      period of time, making it possible for men and women to go to 
      school.  I mean, it is just as simple as that.  
      I have always been a believer in the World War II GI Bill.  If 
      there is one benefit that I have always thought should be 
      carried over into the 21st century as the greatest legislative 
      benefit ever legislated by the United States Congress, that is
      the World War II GI Bill.  An individual limited only by
      aspirations and ability can go to any school in America.  The 
      greatness of America can be found in the men and women who went
      to school under the GI Bill after World War II, and I think that
      is an investment that is worth making for the men and women who 
      are doing extraordinary things today.  I think it is great for 
      them, it is great for our Nation.
      Mr. Wincup.  May I just chime in?
      As former Staff Director of the House Armed Services Committee, 
      I am-I guess I am not without history in this regard, but I 
      remember the same dialogue that my chairman does.  And, frankly, 
      having two Committees to bring that along-it was not an easy 
      piece of legislation to get enacted initially, and having two 
      Committees and having a broader base for it at that point in 
      time made a lot of difference.
      Ms. Herseth.  Along the lines of what you both have just said, 
      I think you would find broad agreement among the Committee and 
      many of our colleagues about the investment in the benefits and 
      what the Montgomery GI Bill has been and can be and can continue 
      to be, but I think we can build on it further.  While I 
      appreciate the comments that we have done a lot to help the 
      Guard and Reserve, I still have a concern.
      When you talk about a marketing strategy, of marketing our
      veterans to the private sector, we have to make sure that 
      whatever we do and authorize to improve education benefits is 
      marketed to the servicemembers.  I don�t think the Chapter 
      1607 benefits have necessarily all the information that should
      have been given to Guard and reservists to take advantage of
      that, has been effectively given to them.
      I do think that if it had been administered differently-I 
      just think we have to look at marketing in two respects here,
      not just to the employers but to the beneficiaries, whether 
      it is the employment opportunity or the education benefits. 
      Do you have thoughts on this?
      Mr. Principi.  If I could, absolutely, Congresswoman.  It is
      far different coming back to a military base.  You know, you 
      demobilize, go through programs.  When you come back as a
      reservist or Guard, you go back to your community, and 
      sometimes you don�t get the information you need, know about
      the benefits available.
      So I agree with-I agree.  Marketing education, making sure 
      they have that information is important.  I know the VA is 
      doing-has worked hard at it.  I am not saying they are there 
      yet or we are there yet, but improvements have been made.  I 
      think we still have a way to go.
      Ms. Herseth.  And I would agree.  I think there is an element 
      of interagency cooperation that is necessary here as well, 
      given the current construct of how we are authorizing and 
      then implementing the new legislation.
      One last question, and certainly we don�t have the 
      development and the-what is the word I am looking for-from
      one generation from another the last time there had been a 
      Commission.  I believe you mentioned 56 to the Commission 
      that you chaired, talking about how it is a different era, 
      different veteran, different technology, different economy. 
      We don�t have that same level of disconnect today from the 
      late 1990s to 2007.
      However, in light of the fact that we weren�t at war at 
      that time and looking at the increased mission tempo for 
      Guard and Reserve as well as other factors, do you think 
      it is time for Congress to authorize a new Commission on 
      Servicemembers and Veterans Transition Assistance?  Or do
      we have plenty to continue to work from based on your work?
      Mr. Principi.  Well, the last Commission was 1997.  We are 
      almost at the 10-year point.  We are in war.  Different 
      needs have been identified, not only on the benefit side of
      the House but the healthcare side of the House.  It might
      be time in the next Congress to look at convening another 
      Commission to take a look at the benefit structure see if 
      it is the right one for the times.
      You know, I am very proud that-you know, you never know
      with the work of the Commission what is going to happen, 
      but we were very fortunate to see Congress embrace the 
      Commission recommendations for the most part, and it is not
      a report that gathered dust on some shelf and just consumed
      money and nothing ever happened.  What I think makes all of 
      us commissioners so proud is that the Congress took up these
      issues, and they legislated, and veterans in our society are 
      better off for it.  So I think perhaps next Congress you 
      might want to look at that.
      Ms. Herseth.  I appreciate that; and I will yield back.  
      Chairman Boozman and I wondered if you would be interested in
      chairing another Commission.
      Mr. Principi.  As long as it is not BRAC.
      Mr. Boozman.  Ms. Hooley.
      Ms. Hooley.  Secretary Principi, first of all, I just want to 
      thank you for chairing BRAC and for all of your time that you have
      put in and service to the country and for all of the work that you
      have done.  You have just done a terrific job.  So I appreciate 
      your public service over a number of years in a number of 
      different roles.  So thank you for that.  
      Mr. Principi.  Thank you.
      Ms. Hooley.  And I am going to follow up on some of the things 
      that Representative Herseth talked about.  Times have changed so 
      much and who knew that we were going to have Guard and Reserve 
      deployed and redeployed and redeployed and some of them are on 
      their fourth time over there, some are on their third time, some 
      are on their second time.  And as we look at benefits-
      And I agree with you.  I think one of the greatest things this 
      country ever did was the GI Bill.  It really was the making of a 
      new America and how many new universities sprung up because of 
      the GI Bill and what wonderful opportunities they gave to 
      people.  As we look at making sure that our veterans are 
      employed, it is sometimes difficult to employ some of the veterans
      if they don�t have the educational background.  I mean they really
      work hand in hand.
      There are a couple of questions I have.
      One is, do we need to look at the cost of college and the cost of 
      tuition.  It has gone up much higher than the cost of living, and 
      how often should we readjust that?
      Again, looking at Guard and Reserve in a different light, based on
      what is happening today, do we need to look at those benefits?
      One of my constituents called with a really interesting story about
      her son who had had some problems after he got out of the military,
      who had some addictions, sort of struggled with life in general. 
      And when he finally got his act together and decided to go back to
      school and really knew what he wanted, his benefits had run out 
      because it had been 10 years.  So they were exhausted.
      First of all, do you know the percentage of people that decided to
      pay the $1,200 into the program so they get educational benefits? 
      And should there be a time limit?
      I would like to know why there is a time limit and should we 
      continue that time limit?
      This is sort of a question to anybody in the room that wants to 
      answer this.  When you have two different jurisdictions over the 
      same issue when talking about veterans-even if we don�t change 
      those jurisdictions, does it make sense to have sort of a joint 
      Committee that works just on this issue-could we take some members 
      from this Committee and some members from the Armed Services to 
      work specifically on this issue.
      And I don�t care where you want to start.
      Mr. Principi.  Well, thank you, Congressman Hooley, for your kind 
      words.
      I want to say 97 percent of-I mean, a very, very high percentage of 
      men and women who join our military are automatically opted into 
      the GI Bill program.  I believe-Kim, am I right-you have to opt out
      of it.  When you join, you are automatically enrolled, but you have
      the option to say I don�t want to go to school.  I want the $1,200 
      a month.  So it is very, very high, which is very, very good news.
      Unfortunately-at least I know the VA folks are here, and they know 
      better the percentage-but at one point in time during my tenure I 
      was surprised to learn that less than 50 percent were availing 
      themselves of the GI Bill, which-you know, 97 percent opt in, less 
      than 50 percent use their benefit.  I am sure there are lots of 
      reasons for that, and perhaps that 10-year delimiting date might
      have something to do with it.
      Historically, there has always been a 10-year time period on using 
      your GI Bill.  I believe the Committee should look at that.  Maybe 
      it is time to say it should be 15 years or 20 years or there 
      should be no time period.  It is a readjustment benefit, so I 
      guess one might say after 10 years it is really no longer a
      readjustment benefit, but the GI Bill has always been considered 
      that.
      I also think the Committee should look carefully at, you know, 
      college education is not for everyone; and there are a lot of other
      wonderful programs that they should avail themselves of: on-the-job 
      training, apprenticeship training, you know, different-technology.
      You know, these young men and women are so computer savvy.  There 
      are a lot of schools they can attend, whether it be a Microsoft 
      school or, you know, whatever it might be.  I think you should 
      look at some of the different ways that we can embrace different 
      types of education.
      So I think all of those-and as far as the survey as to the 
      inflation rate in academia, I think every Congress there should be
      some survey done as to is the GI Bill benefit keeping pace with 
      the inflation in education?  And for the longest time it was not 
      until you have done so in the past 4 years.
      Ms. Hooley.  Right.  Thank you.
      Mr. Boozman.  Thank you.
      In kind of looking at how things are going right now, the 
      DVOPS/LVER system, do you feel that it has run its course?  Is it 
      outmoded at the present time?  Do we need to look at maybe some
      changes in that area?
      Mr. Principi.  Well, I haven�t kept pace with it recently.  I know
      Secretary Ciccolella is here.  He can certainly speak to the issue.
      I recall that when our Commission was in session we were very, 
      very concerned with the program to assist-the Department of Labor
      to assist veterans in getting good jobs.  Unfortunately, there 
      was really no accountability.  There was no incentive for success,
      and there was no penalty for failure, and I believe that the DVOPs
      and LEVRs were caught in a bad system.
      I think some of the legislation that has been passed in recent
      years has helped to correct that, and that is demonstrated in the 
      higher percentage of veterans who are registered at the Department
      of Labor job placement centers have obtained employment.  So I 
      believe that progress is being made, but, again, it was really
      alarming to us back in 1997, 1998, 1999, the poor record of 
      performance in terms of veterans� employment.
      Mr. Wincup.  Mr. Chairman, I don�t have anything to add to that.
      Thank you.
      Mr. Boozman.  Do you all have any other questions?  Good.
      Ms. Hooley.  I have.
      Mr. Boozman.  Go ahead, Ms. Hooley.
      Ms. Hooley.  This is, hopefully, a shorter question.
      As we look-this is what I have heard and I would like to know-it 
      is like a lot of things you hear.  You don�t know how true it is
      or how much basis of fact there is.  We do know that a lot of our
      men and women are coming back from Iraq and Afghanistan with some
      mental health issues, and I think most people would acknowledge
      that is true.  What I had heard is that there are some employers,
      even though they may be breaking the law, that are worried about 
      hiring some of our soldiers returning for that reason.
      First of all, is that true?  And, secondly, how do we enforce the
      law?  And, third, how do we make sure that people are assured that
      we are working with the soldiers and we are taking care of these 
      issues and this isn�t something that employers should be terribly 
      concerned about?  This is a touchy subject to bring up, but I 
      think it is important that we talk about it.
      Mr. Principi.  I think it is a very important issue, considering 
      the nature of this war, insurgency warfare in a way much like 
      Vietnam, different setting but, nonetheless, a lot of 
      post-traumatic stress.  So I think the basis of your question is 
      correct, that some employers are probably discriminating against
      these young men and women because of perhaps perceived mental
      illness.
      As far as enforcing the law, it clearly needs to fall upon-I think
      the Congress can play a role and State governments can play a role,
      but certainly I believe that during my tenure-and I just know 
      certainly under Secretary Nicholson and, of course, Deputy 
      Secretary Mansfield who fought bravely in Vietnam that the VA is 
      doing as much as it possibly can to help those with PTSD and 
      other mentally related problems with all the help they can get.
      I am just very proud of the VA, of what they have done.  I am not 
      saying they are perfect, but I think they have done an 
      extraordinary job and also trying to break down the barriers
      between DOD and VA and bring the two agencies closer together
      so that there is a continuum of care when they are transitioning
      out.  It is far better than it was certainly when I left active 
      duty.
      And your thoughts, Kim?
      Mr. Wincup.  Congresswoman, I am in the private sector and have 
      been for the last 12 years since I left the Federal Government 
      and I have not heard that, to be honest with you.  I have 
      heard-from all I can tell, people are anxious to find veterans 
      for much the same reason we have talked about.
      Ms. Hooley.  I have heard both.  Certainly, we have a lot of 
      employers, and in one of my counties, we have a great program. 
      Actually, one of the counties is doing it for the whole State, 
      where we are advertising, talking about USERRA, talking about
      our soldiers, what wonderful employees they are and I have tried
      to set an example by hiring them in my office.  I think a lot of
      employers want to hire veterans and do so, but I also have heard
      this other little piece sort of buzzing around, and I just
      wanted to know if there was any-I am sure for maybe a few, that
      is true, but I guess what I would like to know, is that 
      prevalent?  Or is that just an occasional employer outlook?
      Mr. Wincup.  I must say that there is something happening.  
      Because you look at these statistics, and they are disturbing.  
      The unemployment rate is higher than it should be.  It is higher
      than the average, and it isn�t better than it was.  When over 
      the last 4, 5 years since we looked at it, it hasn�t improved 
      much.  So there is something happening that I can�t account for,
      but it seems counterintuitive.
      Ms. Herseth.  I would just add one final point to that then, that
      perhaps if indeed the Committee chose to pursue authorization of
      a new Commission that this would be an area that we would 
      specifically request evaluation as it relates to the enforcement
      of USERRA and how best to do that, and if there is something 
      that we can get at that addresses that anomaly.
      Mr. Boozman.  I agree with both of you.  I think this is 
      something, hopefully, we will be able to look at in the next
      Congress.  And I am lobbying a little bit.  I think having the 
      Economic Opportunity Subcommittee has been helpful.
      Because in the past when you are lumped with all of the other 
      benefit for veterans, so much of the time is spent putting out
      fires, that we really have had the opportunity to look at some
      things that maybe are being brushed over in the past because 
      they are more long-range things like employment and training. 
      Again, that is something that is going to have to be decided, 
      the framework of the Committee in the future, but, hopefully, 
      we will keep the subcommittee.
      Thank you all so much for coming.  Thank you, Mr. Wincup, for 
      all that you have done.
      You mentioned, Mr. Secretary, some really some great people, 
      Sonny Montgomery, Bob Stump, those individuals, and certainly 
      you are in that class, and we appreciate all you have done for 
      veterans, all you continue to do for veterans, and thank you 
      very very much.
      Mr. Principi.  Thank you very much.
      Mr. Boozman.  Let�s have the next panel, please.
      Today, we are really pleased to have Deputy Secretary of 
      Veterans� Affairs, The Honorable Gordon Mansfield.  He will 
      be presenting testimony for VA.  Assistant Secretary of Labor
      for Veterans Employment and Training Charles Ciccolella will 
      review the Department of Labor�s progress; and, finally, the
      Deputy Under Secretary for Military Community and Family
      Policy, Ms. Leslye Arsht, will speak on behalf of the Department
      of Defense.      
We appreciate you all being here.
           Mr. Boozman.  You want to start, Gordon?

STATEMENTS OF THE HON. GORDON H. MANSFIELD, DEPUTY SECRETARY,
U.S. DEPARTMENT OF VETERANS AFFAIRS; HON. CHARLES S. CICCOLELLA, 
ASSISTANT SECRETARY FOR VETERANS� EMPLOYMENT AND TRAINING, U.S. 
DEPARTMENT OF LABOR; AND LESLYE A. ARSHT, DEPUTY UNDER SECRETARY
FOR MILITARY COMMUNITY AND FAMILY POLICY, U.S. DEPARTMENT OF
DEFENSE

STATEMENT OF THE HON. GORDON H. MANSFIELD

      Mr. Mansfield.  Yes, sir, Mr. Chairman.
      Mr. Chairman, Ms. Herseth and Ms. Hooley, I want to thank you
      for this opportunity to come talk to you about this issue of 
      importance to the Department of Veterans Affairs.  I would ask
      that my written statement be entered into the full record.
      This hearing is about the recommendations made in 1999 by the
      Transition Commission, headed, as we have just heard by former 
      VA Secretary Principi; and how the VA has responded to these 
      recommendations.  VA has implemented many of the Commission�s 
      recommendations, as discussed fully in my statement for the
      record.
      I would make the point here, too, that many of those 
      recommendations were followed up with action by this 
      Subcommittee, this Committee, and the action by the Congress 
      to put new statutes in place.  The VA has made every attempt 
      to fulfill the requirements, and I would just add my thanks 
      to the bipartisan effort that has gone forward in this 
      important area.
      This hearing, though, is about the way forward.  How do we, as
      a Federal Government, respond to the employment needs of our 
      veterans, a talented and motivated workforce?
      Secretary Nicholson seized on this issue when he became the 
      leader of the organization nearly 2 years ago.  He has 
      participated or directed VA leaders in discussions with the 
      National Guard Bureau, the National Governors Association, and
      with major employers to find ways to get veterans work.  He 
      has also made inroads with his Cabinet colleagues, encouraging
      them to consider employing veterans in their agencies.
      It may be said that his efforts and those of others such as 
      Secretary Principi have paid off.  In fiscal year �05, veterans
      held 25 percent of all Federal jobs, increasing to 456,254 out
      of a 1.8 million workforce and of which approximately 92,000 
      were disabled veterans employed in Federal positions.
      Let me stress that Federal agencies share in the responsibility
      of serving veterans.  No one agency, as we know, has exclusive 
      jurisdiction over these issues.  Veterans, their families and
      our country will benefit from our ability to work 
      collaboratively.  Whereby, as noted in the Commission documents,
      the lines delimiting organizational jurisdiction and authority 
      should be invisible to the service member or veteran crossing 
      them.  That is a valuable insight from the Principi Commission.
      The Commission voiced concern 8 years ago in the disparity for 
      unemployment rates for young, recently separated veterans 
      compared to their peers and veterans in general.  This continues 
      today and is a major issue of concern to VA.  The high rate of 
      unemployment for young, recently separated veterans is 
      unacceptable, particularly now when it is they who have defended 
      our country in the war on terror.  I can assure you that we are
      focused on this cohort of veterans, be they active duty or be 
      they Guard or Reserve members, returning from their deployments.
      Since the Commission�s report, profound changes have occurred in
      the Nation.  Naturally, much of the focus on today�s military 
      needs are on exiting servicemembers who are both young and who 
      have seen multiple tours of duty in an active combat zone.  We 
      know enhanced Web-based technology give veterans access to a vast
      array of information.  It also allows for seamless connections 
      between government agencies which should enable us to more easily
      provide services at a distance.  
      The changing economy, with significant career growth in high-tech
      and service sectors and a more mobile workforce, creates added
      opportunities for transitioning veterans but also makes 
      traditional service delivery more difficult.
      In the report in 1999, the Commission wisely used as a guiding
      principle the goal that each individual servicemember and veteran
      should have as much control as possible over decisions affecting
      his or her life.  VA continues to seek ways to help veterans to 
      make informed decisions with this principle in place.  There are 
      ways the VA can address the issues of separation, of career 
      transition and reintegration into civilian society.  The Federal
      role includes proper health screening to identify issues that 
      may inhibit full employment.
      Recent research documents indicate that unemployment and 
      underemployment can be negative external stresses that impede 
      recovery from PTSD, issues talked about here earlier, and may 
      even trigger delayed onset.  For those with severe combat 
      injuries, VA and DOD have a very successful model-VA�s Office
      of Seamless Transition and DOD�s Severely Injured Center-for
      ensuring that severely injured servicemembers, veterans and
      their families are fully and effectively supported on their
      path to successful reintegration into society.
      We must ensure the earned and needed benefits are provided 
      as timely as possible to achieve maximum utilization by 
      veterans.  The several months prior to separation and the 
      first year after separation, we believe, are critical to 
      successful reintegration.
      We must also understand employment barriers.  The VA, Department
      of Labor and DOD are working collaboratively with your staffs on
      designing and conducting a study in an attempt to find out why 
      young, recently separated veterans are suffering disproportionate
      unemployment; and then we must meet younger veterans� needs with
      tailored support during that critical transition period for
      successful reintegrations.
      Mr. Chairman and members of the Subcommittee, I know that we can
      help veterans complete a timely reintegration using the advantages
      of new technologies and new approaches that have evolved in the
      8 years since the Commission�s work.  I want to make the point, 
      also, that we are looking for not just a job for this individual 
      coming out, we are looking for a career, a career of work that 
      will permit that veteran and their current or future family to be 
      able to live the American dream.  So we want to make sure that it
      isn�t just a job, but it has potential built into it.
      I will continue to work with the others at this tabl,e as well as 
      the hundreds of private companies like Home Depot and Wal-Mart
      who have stepped forward anxious to put skilled veterans on their
      payrolls.  I look forward to your questions.
      Mr. Boozman.  Thank you very much.
      [The statement of Gordon H. Mansfield appears on p. 69]

     Mr. Boozman.  Thank you very much.
     Mr. Ciccolella.

STATEMENT OF THE HON. CHARLES S. CICCOLELLA

     Mr. Ciccolella.  Thank you, Mr. Chairman, and Ranking Member 
     Herseth, and Ms. Hooley.  I want to thank you for holding this 
     hearing.  I think it is a very, very important hearing.  And I 
     think the timing could not be better.  So I thank you for that.
      It is an honor to appear on the panel with Secretary Mansfield 
      and Deputy Undersecretary Arsht.  So I thank you for the
      opportunity to present our views and where we think we are on 
      the Commission�s recommendations.
      The Commission performed a very valuable service in identifying 
      the problems with transition for servicemembers and how they 
      come into employment opportunities.  The Commission made some
      very good proposals for improving the outcomes.  Specifically,
      the Commission was concerned, and I think duly so, with the 
      unacceptable employment rates for newly separated veterans;
      performance standards of the Veterans Employment and Training 
      Service (VETS); and poor accountability of veteran employment 
      programs in general.
      The Commission recommended replacing these programs with 
      restructured services establishing priorities, marketing of 
      veterans, and introducing competition to ensure that the 
      outcomes were acceptable.
      As requested by the Committee, my written statement responds to
      each of the 21, I think, recommendations of the Commission with
      specifics.  So what I would like to do is focus my oral 
      testimony on where we are today with regard to our employment 
      programs and what we are doing to improve employment 
      opportunities for veterans.
      Probably the most significant outcome of the Transition Commission
      was the Jobs For Veterans Act, Public Law 107-288, because that 
      law transformed the way veteran employment services are delivered
      by establishing a priority of service to veterans for all 
      Department of Labor funded programs at job centers around the 
      country.  The law also changed the funding formula so that money 
      goes to where the veterans are, it delineated the roles of the 
      veteran employment representatives, and this was extremely 
      important; and it focused employment services on veterans who need
      those services the most; and of course, there was the incentive 
      awards, which has worked very well in some States, I think many 
      States, and in others, we are still struggling a little bit.  
      The Commission noted that, in 1997, only 12 percent of veterans 
      who registered with the employment service obtained permanent
      employment.  At the time of that report, entered employment rate
      and entered employment placement rates, which was how we were 
      measuring them, averaged 20 to 30 percent across the States.  Some 
      States reported even lower numbers.  Today, the entered employment
      rates for all veterans is 61 percent nationally.  That is through 
      America�s publicly funded work force system, with many States 
      reporting higher rates.  More significantly, we have talked about
      the unemployment rate of young veterans 20 to 24 years old who 
      are also, in most cases, probably all recently separated.  And 
      those seem to be coming down now from the peak last year of almost 
      16 percent, and we expect that 2007 rate to be somewhere between
      10 and 12 percent.  That rate is still unacceptable.
      But what we tried to do is find out more about why that rate is
      high, and we found out some things, and some things we still
      don�t know.  But that is why the Department of Labor, as Secretary
      Mansfield has indicated, are collaborating on research that will
      help us better understand all of the reasons why these young 
      veterans have higher unemployment rates.  For example, the VA, in
      collaboration with us at the Labor Department and with the Defense 
      Department, are surveying a large sample of veterans, about 2,000 
      of them, to determine why it takes so long to get their jobs. 
      There will be a comparison there with the Reserve components and
      the active duty folks.  And at the Department of Labor, we are 
      working with the University of Chicago right now to look at some
      longitudinal data.  That is data that obviously we get by 
      questioning a specific cohort until 1997 about their employment 
      opportunities and outcomes over the length of their employment 
      lives.
      What that research is telling us is that when young veterans first 
      get out of the military, their unemployment rates are high up in 
      the 30 percent range; 3 months later, they are down in the 20s;
      6 months later, they are down in the teens; and 9 months later, 
      they are generally 4 to 6 percent, which is about the Nation�s-
      about the national average.
      So it is telling us a number of things, that while unemployment 
      rates were high when they first get out, that veterans may be 
      taking their time in getting their first jobs.  But that is not
      the whole story, because we still have veterans out there who 
      are looking for jobs, and we have veterans who are out of the 
      labor force, and if we are only placing six out of ten veterans
      through the work force system, then we need to be looking at 
      what happens to the other four, and we also need to be looking 
      at what happens to those veterans who are out of the labor 
      force.  Now, if they are in school or if they are in training, 
      that is fine.  If they are struggling to find a job, then we 
      need to try to find them.
      Our performance standards for vets are established at national
      level.  And individual standards are negotiated at each State.  
      We have established a performance accountability system.  We 
      receive quarterly reports of performance, and certainly we 
      have provided those to the Committee in the past.  We have 
      also reported the-or incorporated the common measures which 
      are the measures across government which-for all employment 
      programs, for our employment programs.
      Public Law 107-288, which is the Jobs For Veterans Act, 
      established a first-in-line priority for veterans in America�s
      work force system, first-in-line for employment assistance, 
      counseling, training and job placement.  The Department of Labor
      has embraced that; we have implemented the priority.  We believe
      that veteran participation rates in all of the programs that the
      Department of Labor funds or partially funds are representative 
      of the numbers of veterans in the labor force.
      I would like to say a couple words about interagency cooperation
      with the Department of Veteran Affairs, Department of Defense.  
      Because I don�t think in the history of-certainly not since I 
      have been here and probably a long time before that-I don�t 
      think interagency cooperation has ever been better.  We have 
      signed memorandums of understanding on TAP with the Department 
      of Defense, Homeland Security and VA.  We have signed MOUs, 
      memorandums of understanding, with the Department of Veteran 
      Affairs, their vocational rehabilitation and employment
      service.  We have agreements with Department of Defense with
      their employers supporting the Guard and Reserves because they
      are our partners in enforcing USERRA.  We have agreements with
      Department of Justice and Office of Special Counsel to actively 
      enforce and take these issues to court if we have to.  And we 
      have a memorandum of agreement with Walter Reed Army Medical 
      Center.  We are starting agreements with the other medical 
      centers on our REAL Life Lines Programs.  Now the REAL Life 
      Lines Program, of course, is the Department�s new program that
      is dedicated to providing individualized job training, 
      counseling and re-employment services to our wounded 
      servicemembers.  I might add that, just 2 months ago, we held
      the first national wounded and injured veterans summit in 
      Alabama.  We chair an interagency Committee on TAP.  We also
      participate in work groups with the Department of Defense on 
      credentialing and military spouse employment.  We work with 
      vocational rehabilitation and employment services in three
      work groups to improve accountability and improve performance 
      and outcomes with the chapter 31 participants.  Finally, we 
      participate on the VA advisory Committees on homeless veterans,
      minority veterans and, of course, women veterans.
      The Commission recommended marketing veterans to employers, and
      the President�s National Hire Veterans Committee, initially 
      established under the Jobs for Veterans, has done just that by
      establishing a national campaign for educating employers on the 
      high value that veterans bring to the work force.  Thousands of
      senior executives and companies corporate offices, employers and
      employer support organizations have been provided valuable input
      or they provided valuable input.  Also, they received valuable
      training in how to establish strategies for reaching out and 
      hiring veterans.  The Committee has sunset, and that is one of 
      the subjects of this Committee with regard to whether or not we 
      reestablish the President�s National Hire Veterans Committee, I
      will just tell you that, so far, we have 47 Governors who have 
      signed proclamations for Hire Vets� first months, designating 
      those months, and we are now in to cosponsoring and cobranding 
      job fairs.  And the Department of Defense is doing this as well 
      for disabled veterans.  These job fairs are extraordinarily 
      important because they bring such visibility to the value that 
      veterans bring to the work force.  And smart employers today, as 
      Secretary Principi said, are turning to the military for their 
      new hires.  We are committed to reintegrating veterans into the 
      work force-and we do that in 3 ways.   Mr. Chairman, first we do 
      that through the American work force system by providing the 
      priority of service in all the 3,400/3,500 job centers around the
      country where we also have the specialized services of the 
      veteran employment representatives.
      Secondly, we continually stand up for veterans when they don�t get
      their jobs back after coming back from their active duty.  We work
      closely with the Department of Defense, the ESGR, or Employer 
      Support of the Guard and Reserve, to make sure servicemembers are 
      briefed before and after they leave service.  We produce rules for
      USERRA law, which makes that law understandable almost instantly. 
      And that law is working much better today.
      The third and probably most important way we reintegrate veterans 
      is by providing quality transition assistance for separating 
      servicemembers of the military.  We believe that TAP employment 
      workshop is essential for military members, both active duty and
      Guard and Reserve, in order to smoothly transition them to their 
      civilian occupations.   And we are improving that workshop.  When
      you look at the issues that veterans have when they come out of 
      the service, and this is fairly consistent; it was the same for me
      as it is for veterans leaving today.  It is the same for 4-star 
      generals as it is for young corporals.  It has to do with their 
      ability to translate their skills, their experience and their 
      training on to a resume, because you just don�t write resumes in 
      the military.  And when they do get out, it is generally the first 
      time they have done a resume.  Military members don�t always 
      interview well because they don�t do that in the military either. 
      Their jobs are generally assigned.  We are working to improve the
      TAP workshop so servicemembers leave the TAP workshop with a resume
      and with mock interviews so they have had that experience, and when
      they go for a job, it is not the first time that they have done a 
      resume or an interview.
      And finally, we will begin linking servicemembers in the transition 
      workshop with their one-stop career centers so that they know where 
      those centers are; they have been up on a State job board, and they 
      know that there is a publicly funded work force system that will
      help us.
      Mr. Chairman, today�s military are all volunteers.  They are highly 
      motivated.  They are highly educated.  This is probably the best 
      military this country has ever seen.  We take our responsibilities 
      very, very seriously to serving them.  There is no more deserving 
      or valuable group than our Nation�s servicemembers and our veterans.
      I want to thank you very much for holding this hearing, and I will
      be pleased to answer your questions.
      [The statement of Mr. Ciccolella appears on p. 81]

     Mr. Boozman.  Thank you very much.
     Ms. Arsht.

STATEMENT OF MS. LESLYE ARSHT

     Ms. Arsht.  Chairman Boozman, Congressman Herseth, Ms. Hooley, thank 
     you for the opportunity to be here today to discuss the Department 
     of Defense transition assistance program that we call TAP.
      Mr. Chairman, you mentioned President Roosevelt�s famous 
      proclamation for this date, but an equally renowned legacy is that 
      the servicemembers of that generation stood up to the challenges of
      that time, and their descendents are doing the same today as they 
      safeguard our Nation�s freedom.
      As a nation, we require a great deal from our Armed Forces, and I 
      want to reaffirm the Department�s commitment to our separating 
      servicemembers.
      I am impressed, as you already heard from my colleagues, by the 
      dedication and willingness of our Federal partners to help 
      provide an assortment of highly desirable transition services. 
      The cooperation and support we receive from the Department of 
      Veteran Affairs and the Department of Labor is superb.  You can be 
      truly proud of the manner in which they, the military services as
      well as private veteran service organizations, continue to 
      enthusiastically support our veterans.  Thank you, too, for the 
      continued interest and support of this subcommittee.
      I want to provide an update to the Department�s implementation of 
      the recommendations that were submitted in response to the 1999 
      report of the Congressional Commission on Servicemembers and 
      Veterans Transition Assistance.  Also, since the Commission�s
      recommendations were made some years ago, and the world has 
      changed considerably in the interim, I will also address some
      other new exciting TAP initiatives.
      Since the report, much has been accomplished.  The Montgomery GI 
      Bill maximum monthly allotment for active duty servicemembers was 
      $528 a month in October of 1998.  Today that allotment is $1,075. 
      The National Defense Authorization Act for Fiscal Year 2000 
      authorizes service secretaries to offer the GIB transferability 
      to dependents of servicemembers who reenlist or extend enlistment
      in critical skill areas.  The Army has implemented a pilot program
      that allows transferability for the GI Bill for spouses of regular 
      Army enlisted personnel.
      Under the National Defense Authorization Act for Fiscal Year 2005,
      TRICARE eligibility was permanently extended to 180 days.  The
      Department supported and has implemented the Commission�s 
      recommendation to make the verification of military experience and
      training, the VMET document, which is DD form 2586, available to 
      eligible members through a VMET internet site which is available 
      24/7.  The VMET is used by servicemembers to develop resumes and 
      acquire college credits based on their military training and
      experience.  Since January 2003, over a million documents has been
      provided to current and for former servicemembers.  In response to
      the Commission�s concerns about credentialing, it relates to 
      military occupational specialties and ratings, DOD and the 
      Department of Labor has established a credentialing working group 
      that is working to remove the credentialing barriers that some 
      veterans and transitioning members face today.  The Army in 2002
      created a Credentialing Opportunity On-Line or Army COOL.  A 
      robust Web site that helps soldiers work towards civilian 
      credentialing related to their military occupational specialty. 
      This year, the Navy followed with Navy COOL.
      I now want to address some of the other TAP initiatives.  We 
      are making dramatic improvements to the Transitional Assistance
      Program to better meet the needs of our Reserve components.  
      DOD, with the assistance of the Department of Labor and the 
      Veterans Affairs Department, is designing a dynamic automated Web
      based system for delivery of transition assistance and related 
      information.  This portal, which we have nicknamed Turbo TAP, 
      will be the backbone of an updated DOD TAP process that will 
      enable servicemembers to access crucial information any time, 
      anywhere.  Phase I of Turbo TAP will be the release of a new 
      transition guide for the Guard and Reserve and an updated 
      preseparation guide for active duty members.  In Phase II, we will
      stand up the critical employment hub for Turbo TAP, which will 
      connect them to the resources they need to find their job and 
      their career.  In subsequent phases, new elements of Turbo TAP 
      delivered by the Department of Defense, Department of Labor, and 
      DVA will be brought on line.
      I want to mention a few other collaborative efforts with our 
      partners at Labor and VA that address some of the issues that are 
      of interest to this Committee.  The Department of Defense and VA 
      established three important interagency councils.  The Joint 
      Executive Council, Health Executive Council, and the Benefits 
      Executive Council, to establish a form of collaborative activities 
      and initiatives relating to policy, coordinated health care and 
      the sharing of benefits information.
      We also have the TAP Steering Committee with representatives from
      DOD, the military services, VA, Department of Labor, and the 
      Department of Homeland Security, which includes the U.S. Coast 
      Guard.  DOD also serves as an ex-officio non-voting member of the 
      Department of Labor Advisory Committee on Veterans Employment 
      Training and Employer Outreach.
      In conclusion, Mr. Chairman, on behalf of the men and women in 
      the military today and their families, thank you and the members
      of this subcommittee for your steadfast support during these
      demanding times.  Thank you.
      [The statement of Ms. Arsht appears on p. 92]

     Mr. Boozman.  Thank you very much.  I appreciate the testimony from
     everyone.
      We have really spent a lot of time on the TAP program in the last 
      2 years and have actually visited sites on various occasions, had 
      breakout visits with people going through the program, have sat
      through the program for several hours.  And I will tell you, I 
      was very, very impressed.  I think the program is a great program.
      One of the concerns that I have is where are we with funding of
      TAP?  Where is it available?  Where is it not?  What are the
      problems of accessing the funds?  When we were in Europe, there 
      was concern that there was not adequate coverage throughout the 
      European theater.  Can you all comment and tell us, reassure us 
      or tell us what your needs are?  
      But comment about, if you have adequate resources for TAP.  I 
      do want to compliment you.  Personally, I feel like that we are
      on track.  I think it is a great program.  I think we really are 
      moving in the right direction and after sitting through the 
      breakout sessions, listening to the people who have gone through
      TAP the only criticism I would have is, I think that 
      servicemembers and their families throughout their career need to
      be exposed to the TAP program every few years to understand what 
      is going on and how they need to be training themselves.  I think 
      it is a great recruiting tool for staying in the service once they
      understand their benefits that they are getting, and then allowing
      them to train themselves in different areas that look like they 
      are going to be booming 5 years from when they get out or 10 years
      or whatever their time frame may be.
      Who wants to tackle that for me?
      Mr. Ciccolella.  I agree with you wholeheartedly on everything 
      you said.  Let me see if I can get to all of your points.  It 
      wouldn�t be a bad idea for servicemembers to have the opportunity 
      to come back to TAP, and the transition portal that we will
      provide I think is a means of doing that.  And we do that because
      there is eligibility for people who are retired so they can come 
      back.  But first thing we got to do is we have got to get every 
      servicemember to TAP before they leave the service.  If they 
      desire to get it-it is a voluntary program-but if they desire to 
      go, we have have to get them to TAP and in that regard, the 
      Defense Department is working very, very closely with us to make 
      sure that if those servicemembers check that they need transition 
      assistance on their preseparation counseling, that their commanders
      know that they are supposed to go to TAP.  
      You are absolutely right on the point of the value of TAP and 
      expanding TAP overseas. I thought this was a very visionary move
      by this Committee who dictated that we do this, and it was a very
      smart move.
      Now what are the problems?  You have been over there.  We are 
      giving it now in 49 locations in 8 countries.  We haven�t got 
      Spain.  And as a matter of fact, I think DOD may still be doing 
      TAP over in Spain not DOL.  So we have got to get into Spain.  We 
      have a little problem there and a problem in Italy because the 
      Italians have a very stringent status of forces agreement, which
      makes it difficult for Americans to work.  So we do TAP in Italy
      with a Federal staff member on a temporary basis.  So I have a 
      Federal staff person who is over there on 3-month or 6-month 
      tours, the GS-13 who gives the TAP.  In the rest of Europe and the 
      Far East, we are generally doing it with a very good contractor, 
      and that contractor is hiring military retirees, smart military 
      retirees who have experience in the military and civilian life 
      and military spouses who are absolutely superb at presenting 
      that TAP, as I am sure you observed.
      So I think we are doing a good job.  We are not getting 
      everybody.  We still have some expansion to do.  And we have to 
      do that consistent with the Department of Defense, and we work 
      on that absolutely every day and we get pretty good cooperation 
      from Defense.
      Mr. Mansfield.  I would just affirm that and make the point 
      that, as Secretary Ciccolella mentioned in his testimony, I 
      think we are working more collaboratively then we ever have in 
      the past.  I think we have also learned with my experience in 
      Cochairing the JEC, the Joint Executive Committee, that we do 
      have an opportunity to discuss a lot more and understand a lot 
      more.  And one of the things I understand now is that, on the 
      DOD side-stick with me here-on the DOD side, when you are 
      talking about transition, that to them it means transition out, 
      and they are in the business of trying to keep people.  So when
      we get into some of these issues, we have to be able to balance 
      those differing requirements and make sure that we understand 
      what the nuances are.  But I think, even given that we are doing
      a lot better job than we have in the past, and I think we are
      increasing exposure and continuing to move forward.  So it is 
      better than it was, not at a hundred percent, but moving towards,
      with general agreement, on how we need to do that.
      Ms. Arsht.  Thank you, gentlemen.  I do think we are working 
      really hard on this.  As you all know, the pre-separation 
      counseling is mandatory, and everyone does take that.  One of 
      the things that we are always looking at are total force issues. 
      There are differences among servicemembers about the services
      that they need.  And some know exactly where they will go;
      they are going back to the jobs they had before.  This is 
      particularly true of Guard and Reserve.  Some already have new
      jobs that they are going to.  Others want to go to school.  
      And what we are talking about now and working in collaboration
      with Department of Labor and VA and internally, is that when a
      servicemember expresses a desire to participate in the 
      Department of Labor or VA benefits part of TAP, that the 
      commander knows that he or she should release them to do that.
      And so we share a commitment to this, and we do think that the
      transition into civilian life is very challenging for some 
      people, and we want to make it as easy for them as it can be.
      We do think that the new portal is going to address many 
      issues, especially for Guard and Reserve.  I mean, as I travel 
      around installations, Guard and Reserve members tell us they
      want to go home when they are demobilized.  And we think that 
      this online 24/7 access is going to allow them to go home and
      get settled; then when they start to think about the future 
      they can get online with TAP, when they are ready to receive 
      it.  By then, they are resettled and back in the embrace of 
      their communities and continue to give support that they want
      once they have returned home.
      Mr. Boozman.  Very good.  You know, Secretary Principi was 
      talking about the unemployment rate.  We are all very 
      concerned about the unemployment rate.  So if you have got a
      strong program this way that everybody can participate in,
      then that is one of the first tools that we have got to work
      with.  And not only is the unemployment rate  so important
      in that sense, if we can provide individuals with the ability
      to support their families, take care of themselves, then the 
      VA has so much less a problem down the line.  We will save 
      money.  I know the President is concerned about veterans�
      employment, I know the current Secretary is very concerned. 
      In his visit with us the Secretary stated personally that 
      this is something that he wants to deal with.  I think this
      is the basic building block that we start with.  And the
      good news is, from what I have seen, an excellent job is 
      being done.  We just need to make sure that everybody is
      able to participate and do it.
      Ms. Herseth.
      Ms. Herseth.  Thank you for all of your testimony.
      Mr. Ciccolella, you just mentioned in response to the 
      Chairman�s question, the points he was making, we really 
      need to try to get every servicemember through TAP.  What 
      is the rate of participation in TAP currently?  Do we have 
      a good way of evaluating it currently?  Do you have the 
      current rate of participation in TAP?
      Mr. Ciccolella.  Under Secretary Arsht has the numbers of 
      the people who leave the service in her testimony.  From 
      our point of view, it is-I can�t speak for Defense but it
      is about 210, 220, 230 thousand who leave active duty every 
      year, and then you have the Guard and Reserve who demobilize.
      I think we get about 65 percent of them.  Like Under 
      Secretary Arsht said, some of these, especially the young 
      ones, and let us talk about them because they are the big 
      subject of the hearing-some are headed to college.  Some 
      are going to go home and work on the farm.  And some are 
      going to take a break after the stress of combat, while 
      others are going to delay finding a job.  And some are going
      to use their unemployment compensation while searching for 
      a job, and that is an important benefit.  And what our 
      research is showing is that, if the unemployment rates of 
      these young veterans go down at the 9-month mark.  Well, 
      that means that many of them, it suggests that many of them
      are using that unemployment compensation to find a good job.
      And that only makes sense.  Because, you know, you don�t go 
      out and buy the first car that-when you need a car, you 
      shop around and you look for a car with value and the best
      value for your money.  These veterans are very smart, and 
      I think a lot of them are doing exactly that.  It is a 
      long-winded answer, but let me sum it up by saying, the most
      important thing that we can do for our servicemembers in 
      terms of helping them get out of the military, make that 
      "jump" to civilian employment as smooth as possible, is to
      get them into the TAP employment workshop.
      Ms. Herseth.  I agree, for many of the reasons you stated 
      and the Chairman stated and am pleased to know, based on 
      some of the information we acquired when we did a field 
      hearing in South Dakota, that we are always looking for ways 
      to improve these workshops to address the needs that are 
      common to veterans of different ages, but who share information
      throughout these workshops.  I am also pleased that we 
      continue to look for ways to show the importance of the resume,
      how to translate their skills and abilities attained during
      military service to what prospective employers are looking 
      for and how you characterize and apply those skills.
      Mr. Ciccolella.  You all do that great as well as anybody in
      South Dakota.
      Ms. Herseth.  Thank you.  I appreciate that.  I do have to
      say one of the other things we heard in South Dakota was 
      perhaps different from the other branches.  It has been a 
      trend here over the last couple of years in the Air Force 
      where there is an increased participation in TAP in part 
      because there is a reduction in force going on.  When that 
      happens, it presents a unique opportunity to harness them and 
      encourage them to participate in ways that maybe we wouldn�t
      see at other bases and other branches.
      Mr. Ciccolella.  The other thing you all are doing up there 
      in South Dakota, in March, I went there and talked to your 
      folks is  they are going to start bringing employers in
      to the TAP workshops.  That is something that we have been
      pushing.  It is a little touchy sometimes with the Defense 
      Department.  And of course every military installation, you 
      know, has their own security issues that they are paying 
      attention to.  But employers are a real important addition to
      TAP, I think.  Because employers will tell individuals what 
      they are looking for.  And what they are looking for is
      exactly what is in that TAP class.
      Ms. Herseth.  Very good.
      Mr. Mansfield, in your testimony, I believe right at the 
      beginning you explained that the VA and the National Guard
      Bureau signed an agreement to train 54 National Guard State 
      benefits advertisers to act as points of contact for Guard 
      members and their families regarding VA benefits and services.
      So a few questions along those lines:  First, are they being 
      utilized?  Have you been receiving any information as to how 
      veterans are responding to these advertisers?  Do we need 
      more than one in each State and territory?  And then Ms. Arsht,
      perhaps you can talk about these advertisers, and do they
      interface in any way with this Turbo TAP, the new portal, and
      how is that being managed?
      Mr. Mansfield.  The initial idea came out of our early work
      dealing with National Guard units coming home with the first
      deployments and understanding right away that we had a 
      different situation to deal with the active-duty forces versus 
      the Guard or Reserve forces.
      So part of the way we thought we could approach it was to make 
      sure we had a contact with the National Guard Bureau then with 
      each State bureau, with the TAGs, so that we would know in VA, 
      in that location, we would be notified when they knew that 
      somebody was coming home.  I have not been at-the last one was a 
      vet center, two hospitals, two regional offices-anywhere in the 
      VA traveling around this country where I haven�t talked to VA 
      personnel that had been out to a National Guard unit on a 
      Saturday or a weeknight or a drill day talking to returning 
      units because we have learned that that is the way to get in 
      touch with them once they get back and once they get into the
      drill period.  The sergeant major or the officers, when 
      approached, will allow us, our people, to come and approach them
      and be in contact; and we found out that that is the best way to
      do it.  The National Guard Bureau has been very cooperative in 
      helping us get that done and establish the contacts in making 
      sure we get the information.
      So I think it has been very beneficial in allowing us to talk 
      face-to-face directly after they return and after they have been 
      home, and then when they are back in uniform in drill to say, 
      "here is what is available," "here is what you can do."  And that
      is both on the benefit side and also, in many cases, on the health
      care side, what we call the New Hampshire model, is they actually
      schedule an extra day at drill to have these folks face-to-face
      with VA health care people on site.  So we are trying to do new
      things that deal with a new situation.
      Ms. Arsht.  The whole intent of this collaboration is that all of
      the employers with a stake in this transition actually have a
      role, an active role in it, so the Guard Bureau has been involved
      with the DoD on Turbo TAP, along with these two departments
      (DOL/VA).  And the other thing is the content-is their content. 
      In other words, this is just a delivery system, but really it is 
      the content that is so valuable.  And what we see at the end 
      state is a servicemember being able to put in, you know, very 
      minimal information to establish who they are, and then based on 
      their military service, those things they are eligible for become
      very easy to access.
      It doesn�t replace the face-to-face support that the Secretary 
      is speaking about.  They really work in tandem.  And so I think 
      you will see ultimately that all of these pieces have been built
      to work together.
      Ms. Herseth.  Turbo TAP and the one-stop career centers have all
      gotten information on how to help a transitioning servicemember 
      to access Turbo TAP.
      Mr. Ciccolella.  On the DOD transitional portal, we have links 
      that make it very easy for servicemembers to find their career 
      one-stop center.  And they are also briefed on that center 
      during TAP, and as I said, we are going to try to actually 
      collect some information from them starting next year early in
      the year, so that we actually send that information to the 
      career one-stop centers.
      Ms. Arsht.  So we are trying to build interactivity between the
      three departments so all of the information dovetails for the 
      servicemember.  From their point of view, it is quite unimportant
      whether it is DOD information, VA information, or Department of
      Labor information.  Only that it is there.  And they can access 
      it.
      Ms. Herseth.  Okay.
      Just a final question and request.  The question, and I am sure
      you may have anticipated this, both for Mr. Mansfield and 
      Ms. Arsht, based on some of the questions that we�re all posing
      to the first panel and our interest in the Montgomery GI Bill 
      and the modernization efforts, and I think you know of 
      Dr. Snyder, who serves on this Committee, as well as Armed 
      Services and his interest in this based on the hearing, the 
      joint hearing that we had just a few months ago, but could you
      provide us today with a progress update regarding the DOD VA 
      task force on the total force GI Bill initiative?  It was 
      originally due last summer, and then it would come into the 
      fall and then we heard at the joint hearing that it would be 
      some time this coming spring.  Do you have any kind of update
      that you can provide us with today?
      Ms. Arsht.  Only to say that the work continues, that it
      would be premature today for us to be able to report anything
      more than that.
      Ms. Herseth.  But you are still on track to try to get it to 
      us in the spring?
      Mr. Mansfield.  The JEC Committee meets quarterly.  The last 
      two meetings this has been briefed to the leadership of the 
      JEC and then the workgroup has been sent back for a few minor
      corrections.  But I think we are getting pretty close to a 
      final product from the workgroup.  But it is under the radar 
      scope of myself and Dr. Chu.  And, again, it is one of those 
      where we are trying to balance some interests.
      Ms. Herseth.  I understand.  My final request would be, as we 
      move into the 110th Congress-and clearly, we have made a lot of 
      progress with your help.  Secretary Principi identified 
      implementing a lot of the recommendations from the Commission
      report.  I am hopeful that each of your agencies will be 
      willing to work with the subcommittee and identifying the 
      remaining recommendations and the best strategy of going about
      implementing those, particularly if, as we have more 
      conversations, it is deemed important and perhaps necessary 
      to authorize another commission, that we finish the work of 
      the prior one, so hopefully, we will be able to undertake 
      that in the upcoming weeks.
      Mr. Mansfield.  One point is, my folks here mentioned that 
      the number that sign up for the Montgomery GI Bill is around
      93 percent, and the number that uses it is now increased up
      into the 70s.  So that is a serious increase over a period 
      of 8 to 10 years.  It used to be in the 47, 50, 51 percent 
      area.  So that is a good sign.
      Ms. Arsht.  I actually did have the numbers; 2.9 million have
      signed up since October, which is up slightly from my written
      statement, and the numbers eligible are 3.8 million.
      Ms. Herseth.  TAP?
      Ms. Arsht.  I thought we were talking GI Bill.
      Ms. Herseth.  We are.
      Mr. Boozman.  Thank you.  Just a couple of things real quick.  
      I mentioned to the former Secretary about the DVOPS/LVER 
      program.  Is there a need to tweakit somewhat?  Can you give
      us any suggestions in that regard?
      Mr. Ciccolella.  Absolutely.  I don�t think it is out of date.
      The Jobs For Veterans Act, I thought, did a very good job in 
      terms of clarifying the rules of the DVOP and the LVER.  I
      think that is very, very smart the way it is laid out. 
      LVERs do TAP, and they do outreach to business, and so we 
      have got to make sure that that is what they do.  And DVOP 
      should be focused on intensive services for disabled veterans
      and veterans who have barriers to employment, and they should
      be focused on job development and job accommodation.  So
      consistent with the Committee�s intent, when you all wrote 
      H.R. 3082, that is how we are gearing the training at NVTI 
      for those individuals.
      Now what is obsolete or may be obsolete are the titles of the
      DVOP and LEVR because some States don�t even use those titles.
      They call them Veteran employment representatives or something
      like that.
      The program always needs tweaking, and it always needs 
      monitoring and supervision.
      Mr. Boozman.  Chairman Principi also recommended in his 
      testimony about reinstating the national-President�s National 
      Hire Veterans Committee.  Do you all have a comment about 
      that?  And if so, would you do it in a different way than it
      was done before or-
      Mr. Ciccolella.  I thought the Committee was a great idea.  It
      served out a very important purpose.  It sunsets after 3 years.
      Based on this Committee�s legislative intent, which is the 
      functions of the Hire Vets First Committee, the President�s 
      Hire Vets Committee have actually been incorporated into the 
      advisory Committee for veterans� employment and training.  And 
      it is now the veterans� employment and training, education and 
      outreach Committee.
      The only thing that I would say is, as a practical matter, is 
      if we reinstate the President�s Hire Vets First Committee, it
      would be better if that Committee also provided the advice to
      the Secretary and the education and the outreach.  This way, 
      we would not need two Committees.  Because then we must support
      two Committees.  And these Committees are very expensive.  They 
      do good work, don�t get me wrong.  They do great work.  But 
      administratively supporting them and the travel and all of that
      sort of stuff, it is expensive and there is a little duplication
      there, too.  So no objection whatsoever.
      Mr. Boozman.  Again, I want to thank you all so much for coming 
      over and testifying.  It was very helpful, as always.  I want 
      to commend you, commend your staffs.  It has really been an 
      honor working with you all.  And that is one of the neat things
      about being in positions, where you really do go beyond the 
      superficial and understand these things and deal with our staffs,
      deal with your staffs, us dealing with you all is a good thing,
      and like I say, we appreciate your efforts for veterans.
      The other thing is that it is Pearl Harbor Day, and that is a 
      very special thing.  My dad was 17 years old, and certainly 
      that disrupted his life immensely.  He had just joined the 
      National Guard and got activated, and that generation did a 
      tremendous job with what they were supposed to do, being called
      to duty and serving their countries along with their families,
      and then as those of us get out in the course of being on 
      Veterans� Affairs and other Committees and seeing the tremendous
      jobs that our service men and women are doing right now, I know 
      that generation is very proud of them.  Thank you all.
      The Committee is adjourned.
      [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]    


</pre></body></html>
